No. 21-231

In the Supreme Court of the United States
JULIE ELLEN WARTLUFT, f/k/a Julie Ellen Bartels and FREDERICK L.
BARTELS, JR., as Administrators of the Estate of Abrielle Kira Bartels, Deceased,
Petitioners,
v.
THE MILTON HERSHEY SCHOOL and HERSHEY TRUST COMPANY, as
Trustee of the Milton Hershey School Trust,
Respondents.
OBJECTION TO MOTION FOR LEAVE TO FILE AMICUS CURIAE BRIEF
Jarad W. Handelman
jwh@elliottgreenleaf.com
Counsel of Record
Christine M. Wechsler
Kyle M. Elliott
ELLIOTT GREENLEAF, P.C.
17 N. Second Street, Suite 1420
Harrisburg, PA 17101
(717) 307-2600
Counsel for Respondents

OBJECTION TO MOTION FOR LEAVE TO FILE AMICUS CURIAE BRIEF
Respondents, the Milton Hershey School (“MHS” or the “School”) and The
Hershey Trust Company (“HTC”) (together “Respondents”), through undersigned
counsel, hereby file this Objection to the Motion for Leave to File an Amicus Curiae
Brief filed by Protect the Hersheys’ Children, Inc. (“PHC”). Respondents respectfully
request that the Court deny the Motion for the following reasons.
First, amicus briefs that merely restate arguments contained in the parties’
briefs serve only to “burden the Court” and are “not favored.” Sup. Ct. R. 37. This is
precisely what PHC does in its proposed Amicus Brief. An amicus curiae brief should
only be filed where it brings “to the attention of the Court relevant matter not already
brought to its attention by the parties.” Id.
PHC’s proposed Amicus Brief merely re-states the same purported “facts” 1
already contained and argued in Petitioners’ Petition for a Writ of Certiorari, i.e., that
students have performed chores at MHS since the early 1900s and that the word
“chores” appears in the enrollment agreement. (Compare Proposed Br., at 2-6 with
Pet., at 8, 20-22). Accordingly, PHC’s proposed Amicus Brief brings no relevant
matter to the Court’s attention not already addressed by the parties. Sup. Ct. R. 37.
Second, the purported “facts” that PHC seeks to bring to this Court’s attention
are wholly irrelevant to the issue at hand, which is why they appear nowhere in the
record. MHS students were indentured to the School in the early 1900s, and yes,
times have obviously changed. Today, of course, there is no such indenturing. In

PHC’s assertions of “facts” contain no citation to the record below, and in several instances
contain assertions that appear nowhere of record in this case.
1

1

fact, the enrollment agreement that Petitioners signed relating to Abbie assured
them that “[y]ou may withdraw your child from the School at any time.” Wartluft v.
Milton Hershey Sch., No. 20-1753 (3d Cir.)., Doc. 21, at A.444. The fact that children
enrolled at the School worked on farms in the early 1900s has absolutely no bearing
on whether performance of chores today, more than a century later, as part of a
residential home-life curriculum offered by the School, constitutes bargained-for
consideration in exchange for student housing. No such consideration exists, and
neither Petitioners nor PHC support this baseless claim with any actual record proof.
PHC, identically to Petitioners, misstates the enrollment agreement signed by
Petitioners, misrepresenting that the document reflects an “agreement” to the
performance of chores as a “condition of enrollment,” and further that the document
“manifests” a bargain for chores in exchange for enrollment. (Proposed Br., at 5). 2 It
does not. Of course, neither Petitioners nor PHC actually provide this Court the
actual text of the document they repeatedly misrepresent, so Respondents are
compelled to so inform the Court.
The enrollment agreement signed by Petitioners contains the word “chores”
one time, embedded in a single sentence enumerating rules governing student
conduct. Tellingly, and consistent with the lower courts’ rulings, the single section of
the document in which the word appears is entitled “Conduct and Discipline,” and
provides as follows:
You agree that your child must obey all School rules and
policies while enrolled at the School. These rules address
Again, this identical argument is already asserted by Petitioners. See (Pet., passim). As
such, PHC merely restates arguments already contained in the parties’ briefs. Sup. Ct. R. 37.
2

2

behavior, program requirements, visiting privileges,
vacations, studies, chores, substance abuse, and all other
matters relating to your child’s conduct at the School. Your
child must obey School staff and respect other students.
You understand that failure to follow these rules and
policies will result in discipline for your child and could
lead, in the sole discretion of the School, to your child’s
dismissal.
Wartluft v. Milton Hershey Sch., No. 20-1753 (3d Cir.)., Doc. 21, at A.444.
Thus, when judged against the actual text of the enrollment agreement,
Petitioners and PHC posit the same absurd argument, i.e. that while enrolled in the
School that they attend entirely free, a student’s mere compliance with School conduct
rules – including not taking drugs, doing your homework, respecting others, and
simply behaving – constitutes the type of “consideration” required to render them
“renters” of their entirely free student housing under the Fair Housing Act.
As to the repeated misstatement that the consequence for failing to do chores
results in a loss of enrollment, this too is a misrepresentation of the actual text of the
document and the practice of the School. The enrollment agreement plainly provides
that failure to follow these rules of conduct – chores, studies, substance abuse, and
behavior alike – will result in discipline of the student. While the potential for
dismissal in the sole discretion of the School is reserved by MHS, this applies equally
to any rule of conduct, and is not limited merely to chores. The record is devoid of
any evidence that a student has ever been dismissed from the School merely for a
failure to perform chores, as any true “condition of enrollment” would require.
As the Third Circuit correctly concluded, compliance with expectations for
student conduct, including chores, that are part of the School’s home-life curriculum
3

does not constitute bargained-for consideration in exchange for free student
housing.

Rather, the undisputed record evidence, including the enrollment

agreement itself, demonstrates that chores, the same as “studies,” are part of the
education provided by MHS. The only difference is life skills are learned in the homelife curriculum, while academic skills are learned in the scholastic curriculum. At
MHS, there is no difference between learning arithmetic and learning life skills; each
provides the student something important that they can use in their life after MHS.
Accordingly, the Third Circuit aptly described chores performed by students as
“more like homework: a core part of [the student’s] educational experience to prepare
[them] for life after school.” Wartluft v. Milton Hershey Sch. & Sch. Tr., 844 F. App'x
499, 503 (3d Cir. 2021).

The text of the enrollment agreement supports this

conclusion and contradicts any contrary reading posited by Petitioners and PHC.
PHC’s submission cites to no case law, statutes, rules, or regulations to assist
this Court’s review. It does not cite to any evidence of record. It contains no legal
analysis whatsoever. It merely argues the same purported “facts” set forth in the
pending Petition; provides PHC’s personal views on student conduct rules at MHS;
and provides rank speculation as to what the founder of MHS would have thought
about the decision of the Third Circuit. Accordingly, PHC’s proposed Amicus Brief
brings no “relevant matter” to the Court’s attention, and includes no argument not
already addressed in the parties’ briefs. See Sup. Ct. R. 37.
Third, PHC’s alleged understanding of the issue involved in this case is in no
way “unique.” In fact, PHC has belatedly advised this Court that its President “has

4

provided legal services…to the Petitioners in this matter…” (PHC Errata to Mtn. for
Leave to File Amicus Br., at ¶ 5); that he has “assist[ed] Petitioners’ counsel of record
when requested…” (Id.); 3 and that he has “contributed to the preparation of [the
proposed amicus] brief.” (Id. ¶ 9). As such, the proposed amicus submission is
nothing more than an attempt at a second “bite of the apple” by an attorney also
claiming to represent Petitioners, and raising the same arguments already contained
in the pending Petition. Moreover, PHC’s claim to have some “unique” perspective
on the issues decided by the Third Circuit rings hollow in light of the fact that PHC
offered no amicus submission to that court before the denial of Petitioners’ appeal.
CONCLUSION
In consideration of the foregoing, Respondents respectfully request that this
Court deny the Motion for Leave to File an Amicus Curiae Brief.
Respectfully submitted,
/s/ Jarad W. Handelman
Jarad W. Handelman, Esquire
Christine M. Wechsler, Esquire
Kyle M. Elliott, Esquire
Elliott Greenleaf, P.C.
17 N. Second Street, Suite 1420
Harrisburg, PA 17101
(717) 307-2600
Dated: September 20, 2021

Counsel for Respondents

PHC is registered with the Pennsylvania Department of State at the same address of the
Dilworth Paxson LLP law firm in Philadelphia, the same law firm of Petitioners’ counsel of record and
signatory to the pending Petition. See (https://www.corporations.pa.gov/search/corpsearch).
3

5

